Department of Homeland Security
   Ofﬁce of Inspector General

            Information Technology Management 
 

    Letter for the Transportation Security Administration 
 

                Component of the FY 2010 DHS 
 

                   Financial Statement Audit 
 





OIG-11-73                                            April 2011
                                                            Office ofInspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 25028




                                                            Homeland
                                                            Security
                                   APR 13 2011
                                             Preface

The Department of Romeland Security (DRS) Office ofInspector General (OIG) was established
by the Homeland Security Act of2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the department.

This report presents the information technology (IT) management letter for the FY 2010
Transportation Security Administration (TSA) component of the DRS financial statement audit
as of September 30, 2010. It contains observations and recommendations related to information
technology internal control that were summarized in the Independent Auditors Report dated
                                                                                    J


November 12, 2010 and presents the separate restricted distribution report mentioned in that
report. The independent accounting firm KPMG LLP (KPMG) performed the audit procedures
at the TSA component in support of the DRS FY 2010 financial statements and prepared this IT
management letter. KPMG is responsible for the attached IT management letter dated February
16,2011, and the conclusions expressed in it. We do not express opinions on DRS' financial
statements or internal control or conclusions on compliance with laws and regulations.


The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. We trust that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                     kFrink.j!!
                                          fJ

                                     Assistant Inspector General
                                     Information Technology Audits
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




February 16, 2011

Inspector General
U.S. Department of Homeland Security
Chief Information Officer and Chief Financial Officer
Transportation Security Administration


Ladies and Gentlemen:
We were engaged to audit the balance sheet of the U.S. Department of Homeland Security (DHS or
Department), as of September 30, 2010, and the related statement of custodial activity for the year
then ended (herein after referred to as “financial statements”). We were also engaged to examine
the Department’s internal control over financial reporting of the balance sheet as of September 30,
2010, and the statement of custodial activity for the year then ended. We were not engaged to audit
the statements of net cost, changes in net position, and budgetary resources as of September 30,
2010 (hereinafter referred to as “other fiscal year (FY) 2010 financial statements”), or to examine
internal control over financial reporting over the other FY 2010 financial statements.
Because of matters discussed in our Independent Auditors’ Report, dated November 12, 2010, the
scope of our work was not sufficient to enable us to express, and we did not express, an opinion on
the financial statements or on the effectiveness of DHS’ internal control over financial reporting of
the balance sheet as of September 30, 2010, and related statement of custodial activity for the year
then ended. Additional deficiencies in internal control over financial reporting, potentially
including additional material weaknesses and significant deficiencies, may have been identified and
reported had we been able to perform all procedures necessary to express an opinion on the
financial statements or on the effectiveness of DHS’ internal control over financial reporting of the
balance sheet as of September 30, 2010, and related statement of custodial activity for the year then
ended; and had we been engaged to audit the other FY 2010 financial statements, and to examine
internal control over financial reporting over the other FY 2010 financial statements.
A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent, or detect and
correct misstatements on a timely basis. A significant deficiency is a deficiency, or a combination
of deficiencies, in internal control that is less severe than a material weakness, yet important enough
to merit attention by those charged with governance. A material weakness is a deficiency, or a
combination of deficiencies, in internal control, such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented, or detected and
corrected on a timely basis.
The Transportation Security Administration (TSA) is a component of DHS. During our audit
engagement, we noted certain matters in the areas of information technology (IT) configuration
management, access controls, and security management with respect to TSA’s financial systems
information technology (IT) general controls, which we believe are control deficiencies. These
matters are described in the IT General Control and Financial System Functionality Findings and
Recommendations by Audit Area section of this letter.


             Information Technology Management Letter for the TSA Component
                       of the FY 2010 DHS Financial Statement Audit
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
The control deficiencies described above are presented in our Independent Auditors’ Report, dated
November 12, 2010. This letter represents the separate limited distribution letter mentioned in that
report.
The control deficiencies described herein have been discussed with the appropriate members of
management, and communicated through a Notice of Finding and Recommendation (NFR).
Because of its inherent limitations, internal control over financial reporting may not prevent, or
detect and correct misstatements. Also, projections of any evaluation of effectiveness to future
periods are subject to the risk that controls may become inadequate because of changes in
conditions, or that the degree of compliance with the policies or procedures may deteriorate. We
aim to use our knowledge of TSA gained during our audit engagement to make comments and
suggestions that are intended to improve internal control over financial reporting or result in other
operating efficiencies. We have not considered internal control since the date of our Independent
Auditors’ Report.
The Table of Contents on the next page identifies each section of the letter. We have provided a
description of key TSA financial systems and IT infrastructure within the scope of our engagement
to audit the FY 2010 DHS financial statements in Appendix A; a description of each internal control
finding in Appendix B; the current status of the prior year NFRs in Appendix C; and TSA
management’s written response in Appendix D. Our comments related to certain additional matters
have been presented in a separate letter to the Office of Inspector General and the TSA Chief
Financial Officer.
TSA’s written response to our comments and recommendations has not been subjected to auditing
procedures and, accordingly, we express no opinion on it.
This communication is intended solely for the information and use of DHS and TSA management,
DHS Office of Inspector General, OMB, U.S. Government Accountability Office, and the U.S.
Congress, and is not intended to be and should not be used by anyone other than these specified
parties.


Very truly yours,




             Information Technology Management Letter for the TSA Component
                       of the FY 2010 DHS Financial Statement Audit
                                  Department of Homeland Security 

                               Transportation Security Administration 

                              Information Technology Management Letter
                                         September 30, 2010

              INFORMATION TECHNOLOGY MANAGEMENT LETTER
                                        TABLE OF CONTENTS
                                                                                                  Page


Objective, Scope, and Approach                                                                      1
 


Summary of Findings and Recommendations                                                             2
 


IT General Controls and Financial System Functionality Findings and 

                                                                                                    3
Recommendations by Audit Area 


  Related to IT Financial Systems Controls                                                          3


       Configuration Management                                                                     3


       Access Control                                                                               3
 


       Security Management                                                                          3


          After-Hours Physical Security Testing                                                     4
 


           Social Engineering Testing                                                               4
 


   Related to Financial System Functionality                                                        4
 


Application Controls                                                                                6
 


Management Comments and OIG Response                                                                6
 


                                             APPENDICES
 

Appendix     Subject                                                                              Page
 

   A	 	      Description of Key TSA Financial Systems and IT Infrastructure within the Scope of    7
 

             the FY 2010 DHS Financial Statement Audit Engagement 


   B	 	      FY 2010 Notices of IT Findings and Recommendations at TSA                             9
 

                 � Notice of Findings and Recommendations – Definition of Severity Ratings 


   C         Status of Prior Year Notices of Findings and Recommendations and Comparison to        18
 

             Current Year Notices of Findings and Recommendations at TSA
 


   D         Management Response                                                                   20
 





              Information Technology Management Letter for the TSA Component
                        of the FY 2010 DHS Financial Statement Audit
                                   Department of Homeland Security 
 

                                Transportation Security Administration 
 

                               Information Technology Management Letter
                                          September 30, 2010


                            OBJECTIVE, SCOPE, AND APPROACH

In connection with our engagement to audit of DHS’ balance sheet as of September 30, 2010 and the
related statement of custodial activity for the year then ended, we performed an evaluation of information
technology general controls (ITGC) at TSA, to assist in planning and performing our audit. The U.S.
Coast Guard’s (Coast Guard) Finance Center (FINCEN) hosts key financial applications for TSA. As
such, our audit procedures over IT general controls for TSA included testing of the Coast Guard’s
FINCEN policies, procedures, and practices, as well as TSA policies, procedures and practices at TSA
Headquarters. The Federal Information System Controls Audit Manual (FISCAM), issued by the GAO,
formed the basis of our ITGC evaluation procedures. The scope of the ITGC evaluation is further
described in Appendix A.
The FISCAM was designed to inform financial auditors about IT controls and related audit concerns to
assist them in planning their audit work and to integrate the work of auditors with other aspects of the
financial audit. FISCAM also provides guidance to IT auditors when considering the scope and extent of
review that generally should be performed when evaluating general controls and the IT environment of a
federal agency. FISCAM defines the following five control functions to be essential to the effective
operation of the general IT controls environment.
�	 Configuration Management (CM) – Controls that help to prevent the implementation of unauthorized
   programs or modifications to existing programs.
�	 Access control (AC) – Controls that limit and/or monitor access to computer resources (data,
   programs, equipment, and facilities) to protect against unauthorized modification, loss, and disclosure.
�	 Security management (SM) – Controls that provide a framework and continuing cycle of activity for
   managing risk, developing security policies, assigning responsibilities, and monitoring the adequacy
   of computer-related security controls.
�	 Segregation of duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to prevent one individual from controlling key aspects of computer-related operations, thus
   deterring unauthorized actions or access to assets or records.
�	 Contingency Planning (CP) – Controls that involve procedures for continuing critical operations
   without interruption, or with prompt resumption, when unexpected events occur.
To complement our general IT controls audit, we also performed technical security testing for key
network and system devices. The technical security testing was performed both over the Internet and
from within select Coast Guard facilities, and focused on test, development, and production devices that
directly support TSA’s financial processing and key general support systems.
Application controls were not tested for the year ending September 30, 2010 due to the nature of prior-
year audit findings.




                Information Technology Management Letter for the TSA Component 
 

                          of the FY 2010 DHS Financial Statement Audit 
 

                                            Page 1
 

                                   Department of Homeland Security 
 

                                Transportation Security Administration 
 

                               Information Technology Management Letter
                                          September 30, 2010

                  SUMMARY OF FINDINGS AND RECOMMENDATIONS

During FY 2010, TSA took corrective action to address prior year IT control deficiencies. For example,
TSA made improvements in its own policies and procedures over its own configuration management
monitoring controls related to the development, implementation, and tracking of scripts at Coast Guard’s
FINCEN. However, during FY 2010, we continued to identify IT general control deficiencies that impact
TSA’s financial data. The key issue from a financial statement audit perspective related to controls over
the development, implementation, and tracking of scripts at Coast Guard’s FINCEN. Collectively, these
deficiencies negatively impacted the internal controls over TSA’s financial reporting and its operation. In
addition, based upon the results of our test work, we noted that TSA did not fully comply with the
Department’s requirements of the Federal Financial Management Improvement Act (FFMIA).
Of the four findings issued during our TSA FY 2010 testing, three were repeated findings and one was a
new IT finding. These findings represent deficiencies in three of the five FISCAM key control areas.
Specifically the deficiencies were: 1) unverified access controls through the lack of comprehensive user
access privilege re-certifications, 2) security management issues involving the terminated employee
process, and 3) physical security and security awareness issues.
In addition, we determined that the following deficiencies identified at the Coast Guard IT environment
also impact TSA financial data: 1) inadequately designed and operating IT script change control policies
and procedures, 2) security management issues involving civilian and contractor background
investigations, 3) lack of consistent contractor, civilian, and military system account termination
notification process, 4) physical security and security awareness issues, and 5) procedures for role-based
training for individuals with elevated responsibilities not fully implemented. We also considered the
effects of financial systems functionality when testing internal controls since key Coast Guard financial
systems that house TSA financial data are not compliant with FFMIA and are no longer supported by the
original software provider. Financial system functionality limitations add to the challenge of addressing
systemic internal control deficiencies, and strengthening the control environment at FINCEN.
These deficiencies may increase the risk that the confidentiality, integrity, and availability of system
controls and TSA financial data could be exploited thereby compromising the integrity of financial data
used by management and reported in TSA’s financial statements.
While the recommendations made by us should be considered by TSA, it is the ultimate responsibility of
TSA management to determine the most appropriate method(s) for addressing the deficiencies identified
based on their system capabilities and available resources.




                Information Technology Management Letter for the TSA Component 
 

                          of the FY 2010 DHS Financial Statement Audit 
 

                                            Page 2
 

                                    Department of Homeland Security 
 

                                 Transportation Security Administration 
 

                                Information Technology Management Letter
                                           September 30, 2010


       IT GENERAL CONTROLS AND FINANCIAL SYSTEM FUNCTIONALITY 
 

             FINDINGS AND RECOMMENDATIONS BY AUDIT AREA 
 


Findings:
During the FY 2010 DHS Financial Statement Audit, we identified the following TSA IT and financial
system control deficiencies that in the aggregate are considered management letter comments. Our
findings are divided into two groupings: 1) financial systems controls and 2) IT system functionality.

Related to IT Financial Systems Controls:

Configuration Management
The Coast Guard’s core financial system configuration management process controls are not operating
effectively, and continue to present risks to TSA financial data confidentiality, integrity, and availability.
Financial data in the general ledger may be compromised by automated and manual changes that are not
adequately controlled. For example, the Coast Guard uses an IT scripting process to make updates, as
necessary, to its core general ledger software to process financial data. We noted that some previously
noted weaknesses were remediated (particularly in the second half of FY 2010), while other control
deficiencies continued to exist. The remaining control deficiencies vary in significance; however three
key areas that impact the Coast Guard IT Script control environment are: 1) Script Testing Requirements,
2) Script Testing Environment, and 3) Script Audit Logging Process.
1)	 Script Testing Requirements: Limited testing requirements exist to guide FINCEN staff in the
    development of test plans and guidance over the functional testing that should be performed.
2)	 Script Testing Environment: Not all script changes were tested in the appropriate test environments.
3)	 Script Audit Logging Process: FINCEN’s core system databases are logging changes to tables as
    well as successful and unsuccessful logins. However, no reconciliation between the scripts run and
    the changes made to the database tables is being performed to monitor the script activities and ensure
    that all scripts run have been approved.
In addition, we noted weaknesses in the script change management process at the USCG as it relates to
the Internal Control over Financial Reporting (ICOFR) process (e.g., the financial statement impact of the
changes to FINCEN core accounting system through the script change management process).

Access Control
�	 Access review procedures for key financial applications do not include the review of all user accounts
   to ensure that all terminated individuals no longer have active accounts; inactive accounts are locked;
   and privileges associated with each individual are still authorized and necessary.

Security Management
�	 The computer access agreement and exit clearance procedures for TSA employees have not been
   consistently implemented; and


                 Information Technology Management Letter for the TSA Component 
 

                           of the FY 2010 DHS Financial Statement Audit 
 

                                             Page 3
 

                                   Department of Homeland Security 
 

                                Transportation Security Administration 
 

                               Information Technology Management Letter
                                          September 30, 2010

�	 During our after-hours physical security and social engineering testing we identified exceptions in the
   protection of sensitive user account information. The tables below detail the exceptions identified at
   the locations tested.

After-Hours Physical Security Testing:
We performed after-hours physical security testing to identify risks related to non-technical aspects of IT
security. These non-technical IT security aspects include physical access to media and equipment that
houses financial data and information residing on a TSA employee’s / contractor’s desk, which could be
used by others to gain unauthorized access to systems housing financial information. The testing was
performed at TSA Headquarters.

                Exceptions Noted                                Total Exceptions at TSA
                                                                      HQ by Type
                Passwords                                                  0
                For Official Use Only (FOUO)                               0
                Keys/Badges                                                0
                Personally Identifiable Information (PII)                  0
                Server Names/IP Addresses                                  0
                Unsecured Laptop                                           1
                External Drives                                            0
                Credit Cards                                               0
                Classified Documents                                       0
                Other –US government official passport                     0
                Total Exceptions at TSA HQ                                 1

Social Engineering Testing:
Social engineering is defined as the act of attempting to manipulate or deceive individuals into taking
action that is inconsistent with DHS policies, such as divulging sensitive information or allowing /
enabling computer system access. The term typically applies to trickery or deception for the purpose of
information gathering, or gaining computer system access.

         Total Called      Total Answered Number of people who provided a password
               45                 10      3 People Provided Their Passwords


Related to Financial System Functionality:
We noted that financial system functionality limitations are contributing to control deficiencies reported
herein, and inhibiting progress on corrective actions impacting TSA. These functionality limitations are
preventing the TSA from improving the efficiency and reliability of its financial reporting processes.
Some of the financial system limitations lead to extensive manual and redundant procedures to process
transactions, verify accuracy of data, and to prepare financial statements. Systemic conditions related to
financial system functionality include:

                Information Technology Management Letter for the TSA Component 
 

                          of the FY 2010 DHS Financial Statement Audit 
 

                                            Page 4
 

                                   Department of Homeland Security 
 

                                Transportation Security Administration 
 

                               Information Technology Management Letter
                                          September 30, 2010

�	 As noted above, Coast Guard’s core financial system configuration management process is not
   operating effectively due to inadequate controls over the IT script process. The IT script process was
   instituted as a solution primarily to compensate for system functionality and data quality issues;
�	 Production versions of operational financial systems are outdated, no longer supported by the vendor,
   and do not provide the necessary core functional capabilities (e.g., general ledger capabilities); and
�	 Issues with current technology are preventing TSA management from reviewing account
   recertification reports timely.

Recommendations:

We recommend that TSA:
�	 Conduct an assessment over the ICFOR process related to identifying and evaluating scripts that have
   a financial statement impact, in coordination with USCG. This assessment can be included in the
   testing of the TSA Script Configuration Management Oversight Process as part of TSA’s annual
   OMB Circular A-123 efforts. Further, we recommend that this assessment (1) be performed early in
   FY 2011, in time to remediate deficiencies before the end of the third quarter, and (2) involve process
   documentation and sufficient testing to fully assess both design and operating effectiveness of
   controls.

�	 Have FINCEN update its helpdesk procedures to provide the correct guidelines so that its helpdesk
   staff will no longer grant additional Standard Financial Procurement Desktop roles that were not
   requested via the Automated Access Request (AAR) process. TSA should closely monitor the
   requests implemented by FINCEN to ensure that the updated procedures are being followed.
�	 Improve the timeline and process of its quarterly review. TSA should update its procedures to
   monitor the timeliness, accuracy and quality of the quality review process.
        -   Update quarterly review Internal Standard Operating Procedure to add the expected timeline
            to complete the quarterly review.
        -   Conduct timely follow-up and review of the actual FINCEN implementation of the AARs to
            ensure that the AARs were implemented as requested.
�	 Work with FINCEN to identify and implement the best solution to remove the one Sunflower role
   from the user’s profile.
�	 Work with FINCEN to research and identify options to enhance the automated AAR process.
�	 Provide more training and oversight for any new access manager to ensure the process is thoroughly
   followed.
�	 Closely monitor and follow-up with FINCEN to ensure requests are implemented timely and
   correctly.
�	 Review and identify alternate reporting processes in cases of technical difficulties where supervisors
   cannot access the master files on SharePoint.



                Information Technology Management Letter for the TSA Component 
 

                          of the FY 2010 DHS Financial Statement Audit 
 

                                            Page 5
 

                                  Department of Homeland Security 
 

                               Transportation Security Administration 
 

                              Information Technology Management Letter
                                         September 30, 2010

�	 Supervisors and Contracting Officer’s Technical Representatives within each program office in TSA
   should ensure that each TSA employee and contractor have on file a signed Computer Access
   Agreement form, prior to any financial system access being granted.

�	 Continue to execute the IT Security Awareness Training program.

�	 Conduct an internal Physical Security walkthrough on a bi-annual basis.

�	 Conduct one-on-one training with individuals failing physical security after-hours testing.

�	 Conduct a communications campaign to address the effects of improper handling of Physical
   Security.

�	 Conduct internal Social Engineering testing on a quarterly basis.

�	 Conduct one-on-one training with individuals failing social engineering attempts.

�	 Conduct a communications campaign via broadcast warning against social engineering.


                                   APPLICATION CONTROLS

Application controls were not tested for the year ending September 30, 2010, due to the nature of the
prior-year audit findings.


                    MANAGEMENT COMMENTS AND OIG RESPONSE

We obtained written comments on a draft of this report from TSA’s Chief Financial Officer and Chief
Information Officer. Generally, TSA management agreed with our findings and recommendations. TSA
management has developed a remediation plan to address these findings and recommendations. We have
included a copy of the comments in Appendix D.

OIG Response

We agree with the steps that TSA management is taking to satisfy these recommendations.




                Information Technology Management Letter for the TSA Component 
 

                          of the FY 2010 DHS Financial Statement Audit 
 

                                            Page 6
 

                                                                                  Appendix A
                              Department of Homeland Security 
 

                           Transportation Security Administration 
 

                          Information Technology Management Letter
                                     September 30, 2010




                                        Appendix A

Description of Key TSA Financial Systems and IT Infrastructure within the Scope of the FY
                    2010 DHS Financial Statement Audit Engagement




             Information Technology Management Letter for the TSA Component 
 

                       of the FY 2010 DHS Financial Statement Audit 
 

                                         Page 7
 

                                                                                                 Appendix A
                                  Department of Homeland Security 
 

                               Transportation Security Administration 
 

                              Information Technology Management Letter
                                         September 30, 2010

Below is a description of significant TSA financial management systems and supporting IT infrastructure
included in the scope of the engagement to perform the financial statement audit.
Locations of Audit: TSA Headquarters in Washington, D.C. and the Coast Guard FINCEN in Chesapeake,
Virginia. TSA’s financial applications are hosted on the Coast Guard’s IT platforms.
Key Systems Subject to Audit:
�	 Core Accounting System (CAS): Core accounting system that is the principal general ledger for
   recording financial transactions for TSA. CAS is hosted at FINCEN, the Coast Guard’s primary data
   center. It is a customized version of Oracle Financials.
�	 Financial Procurement Desktop (FPD): Used to create and post obligations to the core accounting
   system. It allows users to enter funding, create purchase requests, issue procurement documents,
   perform system administration responsibilities, and reconcile weekly program element status reports.
   FPD is interconnected with the CAS system and is hosted at FINCEN.
�	 Sunflower: Sunflower is a customized third party commercial off the shelf product hosted at FINCEN
   and used for TSA and Federal Air Marshals property management. Sunflower interacts directly with the
   financial accounting (FA) module in CAS. Additionally, Sunflower is interconnected to the FPD
   system.
�	 MarkView: MarkView is an imaging and workflow software used to manage invoices in CAS. Each
   invoice is stored electronically and associated to a business transaction so that users are able to see the
   image of the invoice. MarkView is interconnected with the CAS system and is located at the FINCEN in
   Chesapeake, VA and is managed by the United States Coast Guard.




               Information Technology Management Letter for the TSA Component 
 

                         of the FY 2010 DHS Financial Statement Audit 
 

                                           Page 8
 

                                                                     Appendix B
                Department of Homeland Security 
 

             Transportation Security Administration 
 

            Information Technology Management Letter
                       September 30, 2010




                          Appendix B 
 


FY 2010 Notice of IT Findings and Recommendations at the TSA 
 





Information Technology Management Letter for the TSA Component 
 

          of the FY 2010 DHS Financial Statement Audit 
 

                            Page 9
 

                                                                                                 Appendix B
                                     Department of Homeland Security 
 

                                  Transportation Security Administration 
 

                                 Information Technology Management Letter
                                            September 30, 2010




Notice of Findings and Recommendations – Definition of Severity Ratings:

Each NFR listed in Appendix B is assigned a severity rating from 1 to 3 indicating the influence on the DHS
Consolidated Independent Auditors’ Report.

      1 – Not substantial 
 

      2 – Less significant 
 

      3 – More significant 
 


The severity ratings indicate the degree to which the deficiency influenced the determination of severity for
consolidated reporting purposes.

These rating are provided only to assist TSA in the development of its corrective action plans for
remediation of the deficiency.




               Information Technology Management Letter for the TSA Component 
 

                         of the FY 2010 DHS Financial Statement Audit 
 

                                           Page 10
 

                                                                                                                                        Appendix B
                                                   Department of Homeland Security 
 

                                                Transportation Security Administration 
 

                                               Information Technology Management Letter
                                                          September 30, 2010

                                    Notification of Findings and Recommendations – Detail

 NFR                                                                                                                            New       Repeat     Severity
                                   Condition                                              Recommendation
 No.                                                                                                                            Issue      Issue      Rating
TSA-IT­   To complement our IT audit testing efforts as part of the         We recommend TSA in the area of physical                        X           1
 10-01    FY2010 DHS Integrated Audit, we also performed social             Security to:
          engineering and after hours physical security testing During
          our testing we identified the following                           1) Continue to execute the          IT   Security
                                                                               Awareness Training program;
          During our after-hours physical security testing, we identified
          one instance of an unsecured laptop computer;                     2) Conduct an internal Physical          Security
                                                                               walkthrough on a bi-annual basis;
          During our social engineering testing, we were provided with
          three user’s passwords.                                           3) Conduct one-on-one training with individuals
                                                                               failing physical security after-hours testing;

                                                                            4) Take administrative actions, if needed, on a
                                                                               case-by-case basis; and

                                                                            5) Conduct a communications campaign to
                                                                               address the effects of improper handling of
                                                                               Physical Security.

                                                                            We recommend TSA in the area of social
                                                                            engineering to:

                                                                            1) Continue to execute the          IT   Security
                                                                               Awareness Training program;

                                                                            2) Conduct internal Social Engineering testing
                                                                               on a quarterly basis;

                                                                            3) Conduct one-on-one training with individuals
                                                                               failing social engineering attempts.

                              Information Technology Management Letter for the TSA Component 
 

                                        of the FY 2010 DHS Financial Statement Audit 
 

                                                          Page 11
 

                                                                                                                                       Appendix B
                                                  Department of Homeland Security 
 

                                               Transportation Security Administration 
 

                                              Information Technology Management Letter
                                                         September 30, 2010

 NFR                                                                                                                           New       Repeat     Severity
                                   Condition                                             Recommendation
 No.                                                                                                                           Issue      Issue      Rating
                                                                           4) Conduct a communications campaign via
                                                                              broadcast warning against social engineering.

TSA-IT­   Core Accounting System (CAS) & Financial Procurement             We recommend TSA to take the following                          X           2
 10-02    Desktop (FPD)                                                    corrective actions:
          During our FY 2010 IT test work, we determined that TSA
          had created an Internal Standard Operating Procedure (ISOP)
                                                                           CAS/FPD:
          to detail how quarterly access reviews were to be performed.
          We compared a listing of TSA, CAS, and FPD users to the          1) Have FINCEN update its helpdesk procedures
          master listing of users who needed modifications or deletions       to provide the correct guidelines so that its
          for three quarters (Q1, Q2, and Q3). We did not identify any        helpdesk staff will no longer grant additional
          exceptions for Q1 and Q2; however, for the 3rd quarter, one         Standard FPD roles that were not requested on
          CAS user was not deleted or modified within 50 days after the       AAR. TSA should closely monitor the
          end of the completion of the 3rd quarter. In addition, we           requests implemented by FINCEN to ensure
          noted 115 FPD users were not deleted or modified within 51          that the updated procedures are being
          days after the completion of the 3rd quarter.                       followed.

          Sunflower                                                        2) Improve the timeline and process of its
          During our FY 2010 test work, we determined that the Office         Quarterly Review. TSA should update its
          of Property Management (OPM) performs monthly access                procedures to monitor the timeliness, accuracy
          reviews over Sunflower user accounts. OPM runs three                and quality of the Quality Review process.
          Sunflower reports each month, and the Deputy Property                    a. Update Quarterly Review ISOP to
          Management Officials (DPMOs) and OPM Access Manager                         add the expected timeline to complete
          review the reports and provide dates and initials by each user              the quarterly review.
          reviewed. However, for the three months sampled, we                      b. Conduct timely follow-up and review
          determined that three Sunflower users, who had update                       of the actual FINCEN
          privileges, had not had their access removed in a timely                    implementation of the AARs to
          manner. All users were reviewed in January, but two were                    ensure that the AARs were
          not removed until July, and the other user was not removed                  implemented as requested.
          until August.
                                                                           3) Work with FINCEN to identify and
                                                                              implement the best solution to remove the one
                                                                              Sunflower role from the user’s profile.

                              Information Technology Management Letter for the TSA Component 
 

                                        of the FY 2010 DHS Financial Statement Audit 
 

                                                          Page 12
 

                                                                                                                                      Appendix B
                                                  Department of Homeland Security 

                                               Transportation Security Administration 

                                              Information Technology Management Letter
                                                         September 30, 2010

 NFR                                                                                                                          New       Repeat     Severity
                                  Condition                                              Recommendation
 No.                                                                                                                          Issue      Issue      Rating

                                                                          4) Work with FINCEN to research and identify
                                                                             options to enhance the automated AAR
                                                                             process.

                                                                          Sunflower:
                                                                          1) Provide more training and oversight for any
                                                                              new access manager to ensure the process is
                                                                              thoroughly followed.

                                                                          2) Closely monitor and follow-up with FINCEN
                                                                             to ensure requests are implemented timely and
                                                                             correctly.

                                                                          3) Review and identify alternate reporting
                                                                             processes in cases of technical difficulties
                                                                             where supervisors cannot access the master
                                                                             files on SharePoint.

TSA-IT­   During our FY 2010 audit test work, we selected a sample of     We recommend that TSA take the following                        X           1
 10-03    the following forms required by the TSA directive and           corrective action:
          determined the following:
                                                                          Supervisors and Contracting Officer’s Technical
          �    Form 1403 Computer Access Agreement: Per the TSA           Representatives within each program office in
               IT Security Policy Handbook, all TSA personnel,            TSA should ensure, as required by the IT Security
               including contractors, are required to review and sign     Policy Handbook, that evidence be maintained on
               Form 1403: Computer Access Agreement upon                  file for each TSA employee and contractor the
               commencement of working for the agency. Our testing        Computer Access Agreement form, signed prior to
               noted that of the five forms sampled, one form was         any financial system access is granted.
               completed one month after the user was granted access to
               a TSA system.
TSA-IT­   During the FY 2010 IT audit, we determined that TSA has         We recommend that TSA work with the DHS              X                      2
 10-04    fully implemented the TSA ISOP: Process for Validation of       Chief Financial Officer and the DHS Chief
                              Information Technology Management Letter for the TSA Component 

                                        of the FY 2010 DHS Financial Statement Audit 

                                                          Page 13
 

                                                                                                                                    Appendix B
                                               Department of Homeland Security 
 

                                            Transportation Security Administration 
 

                                           Information Technology Management Letter
                                                      September 30, 2010

NFR                                                                                                                         New       Repeat     Severity
                               Condition                                              Recommendation
No.                                                                                                                         Issue      Issue      Rating
      Controls over the USCG Script Process to monitor scripts run     Information Officer to ensure that Coast Guard
      at FINCEN.                                                       Headquarters' completes, in a timely manner, the
                                                                       planned corrective actions to:
      Specifically, we noted that TSA has implemented an
      extensive review of the scripts that impact TSA on a weekly,     1) Update the scripting policies and procedures
      monthly, quarterly and ad hoc basis. Additionally, a baseline       to include additional and more detailed test
      review was performed to ensure that all scripts that were run       documentation;
      in production prior to 4/1/2010. Approximately 160 scripts
      were reviewed for their purpose and the financial impact of      2) Develop training that addresses all aspects of
      the scripts were understood by the various stakeholders in the      script testing (including documentation of test
      script review process, which included the Script Technical          documents) and provide training to
      Lead, Script Module Leads (SMLs), and Subject Matter                appropriate CM staff;
      Experts (SMEs). Any script that was not included in the
      baseline review was considered new and was included in the       3) Develop a resource plan (RP) with associated
      weekly, monthly, quarterly and ad hoc review process. The           supporting business case(s) to address the
      reviews conducted by TSA included validation and                    database audit logging requirements;
      verification steps to ensure that the Coast Guard is properly
      tracking the TSA scripts and that those scripts go through the   4) Develop procedures and perform regular
      proper configuration management processes.                          account revalidation for Serena to ensure
                                                                          privileges remain appropriate; and
      We noted no exceptions during our testing of the TSA Script
      Configuration Management (CM) Oversight Process.                 5) Conduct an assessment over the ICOFR
                                                                          process related to identifying and evaluating
      Configuration Management Controls Over the Coast Guard              scripts that have a financial statement impact.
      Scripting Process                                                   This assessment can be included in the
                                                                          Configuration Management Oversight Process
      The analysis conducted over the Coast Guard script                  as part of Coast Guard’s annual A-123 efforts
      configuration management process reflects the assessment of         or performed independent of the A-123
      the control environment for the entire fiscal year.                 process. We recommend that this assessment
      Weaknesses identified over the process are risks that existed       (1) be performed early in the FY 2011, in time
      in the environment from October 2009 to September 2010              to remediate deficiencies before the end of the
      unless otherwise noted.                                             third quarter, and (2) involve process
                                                                          documentation and sufficient testing to fully
                          Information Technology Management Letter for the TSA Component 
 

                                    of the FY 2010 DHS Financial Statement Audit 
 

                                                      Page 14
 

                                                                                                                                         Appendix B
                                                Department of Homeland Security 
 

                                             Transportation Security Administration 
 

                                            Information Technology Management Letter
                                                       September 30, 2010

NFR                                                                                                                              New       Repeat     Severity
                                Condition                                               Recommendation
No.                                                                                                                              Issue      Issue      Rating
                                                                             third quarter, and (2) involve process
      1.   Based upon follow-up test work performed in FY 2010,
                                                                             documentation and sufficient testing to fully
           we determined that some previously noted weaknesses
                                                                             assess both design and operating effectiveness
           were remediated (particularly in the second half of FY
                                                                             of controls. The objective is to have a reliable
           2010), while other control deficiencies continued to exist.
                                                                             process and internal controls in place that
           The remaining control deficiencies that were present
                                                                             allow the auditor to test, and rely on those
           throughout FY 2010 vary in significance; however three
                                                                             controls, during the fourth quarter of FY 2011.
           key areas that impact the Coast Guard Script control
           environment are: 1) Script Testing Requirements, 2)
                                                                         TSA Specific Recommendation:
           Script Testing Environment, and 3) Script Audit Logging
           Process.                                                      Continue to conduct an assessment over the
                                                                         ICFOR process related to identifying and
                                                                         evaluating scripts that have a financial statement
               a.   Script Testing Requirements: Limited testing         impact. Findings should be communicated and
                    requirements exist to guide FINCEN staff in the      coordinated with USCG, as appropriate. This
                    development of test plans and guidance over the      assessment can be included in the testing of the
                    functional testing that should be performed.         TSA Script Configuration Management Oversight
                    Additionally, we determined that there are no        Process as part of TSA’s annual A-123 efforts.
                    detailed requirements over the review and            Further, we recommend that this assessment (1) be
                    testing of functional changes to the data.           performed early in the FY 2011, in time to
                    FINCEN only tracks and documents the number          remediate deficiencies before the end of the third
                    of transactions updated on scripts that have a       quarter, and (2) involve process documentation
                    financial impact and not the detailed dollar         and sufficient testing to fully assess both design
                    amounts associated with the financial impact         and operating effectiveness of controls. The
                    transactions.                                        objective is to have a reliable process and internal
                                                                         controls in place that allow the auditor to test, and
               b.   Script Testing Environment: Not all script
                                                                         rely on those controls, during the fourth quarter of
                    changes were tested in the appropriate CAS
                                                                         FY 2011.
                    Suite test environments as required. FINCEN
                    management informed us that the testing
                    environments, CAS4 and LUFSFQT3, were
                    offline for these exceptions due to a refresh of
                    the databases and that testers used CAS3 and
                    Alpha as alternate testing environments instead.
                           Information Technology Management Letter for the TSA Component 
 

                                     of the FY 2010 DHS Financial Statement Audit 
 

                                                       Page 15
 

                                                                                                       Appendix B
                                              Department of Homeland Security 
 

                                           Transportation Security Administration 
 

                                          Information Technology Management Letter
                                                     September 30, 2010

NFR                                                                                            New       Repeat     Severity
                               Condition                                      Recommendation
No.                                                                                            Issue      Issue      Rating
                   However, FINCEN management informed
                   KPMG that these environments are refreshed on
                   an as needed basis and no further information
                   could be provided on how frequently the CAS3
                   and Alpha databases were refreshed to verify
                   that the scripts were adequately tested in the
                   appropriate environment. Furthermore, we
                   determined that guidance is not provided over
                   the use of alternate testing environments for the
                   testing of scripts to ensure they are adequately
                   tested.
              c.   Script Audit Logging Process: The CAS, FPD,
                   and Sunflower databases are logging changes to
                   tables as well as successful and unsuccessful
                   logins. However, no reconciliation between the
                   scripts run and the changes made to the database
                   tables is being performed to monitor the script
                   activities and ensure that all scripts run have
                   been approved through CMSS or Serena. In
                   addition, we noted that FINCEN has not
                   established a formal process to monitor and
                   review changes made to the Sunflower database
                   including the tables and activities modified by
                   the database administrators.



      Internal Control Over Financial Reporting – Financial
      Statement Impact.
      The USCG has established certain processes to identify and
      assess the validity of scripts that may have a financial
      statement impact [on both USCG and TSA financial

                          Information Technology Management Letter for the TSA Component 
 

                                    of the FY 2010 DHS Financial Statement Audit 
 

                                                      Page 16
 

                                                                                                        Appendix B
                                               Department of Homeland Security 
 

                                            Transportation Security Administration 
 

                                           Information Technology Management Letter
                                                      September 30, 2010

NFR                                                                                             New       Repeat     Severity
                               Condition                                       Recommendation
No.                                                                                             Issue      Issue      Rating
      statements]. This process is performed by one primary
      individual, and two identified backup personnel, who perform
      a review of the script for accuracy and propriety, provides
      feedback to the source, and ultimately approves the
      application. This process has certain control deficiencies that
      have been communicated to USCG (see NFR # CG-IT-10­
      05), which have led, in part, to TSA’s adoption of certain
      redundant controls to review TSA scripts for propriety.
      Furthermore, the rationale documenting the impact of the
      script, whether deemed as having financial impact or not, is
      not documented and retained. In addition, within the CAS
      Suite environment, there are over 200 scripts run on a weekly
      basis. During FY 2010, through this review TSA has
      discovered various errors that USCG was required to correct.
      The exceptions noted by TSA are indicative of weaknesses in
      the USCG process.
      We also consider this control aspect to be principally
      important for TSA to monitor Coast Guard’s corrective
      actions taken. In addition, TSA should consider, as part of
      their annual A-123 efforts, adding their own A-123 testing
      procedures in identifying and evaluating the financial impact
      of TSA scripting at the Coast Guard.




                           Information Technology Management Letter for the TSA Component 
 

                                     of the FY 2010 DHS Financial Statement Audit 
 

                                                       Page 17
 

                                                                                    Appendix C
                               Department of Homeland Security 
 

                            Transportation Security Administration 
 

                           Information Technology Management Letter
                                      September 30, 2010




                                         Appendix C 
 


    Status of Prior Year Notices of Findings and Recommendations and Comparison to
 

              Current Year Notices of Findings and Recommendations at TSA
 





Information Technology Management Letter for the TSA Component of the FY 2010 DHS Financial 
 

                                     Statement Audit 
 

                                           Page 18 
 

                                                                                                Appendix C
                                Department of Homeland Security
                             Transportation Security Administration
                            Information Technology Management Letter
                                       September 30, 2010



                                                                                          Disposition

  NFR No.                                 Description                               Closed       Repeat
                                                                                               TSA-IT-10­
TSA-IT-10-20    TSA Computer Access Agreement Process
                                                                                                  03
                Configuration Management Controls Over the Coast Guard Scripting
                                                                                      X
TSA-IT-10-23    Process (Included a specific TSA condition)
                Physical Security and Security Awareness Issues Identified during              TSA-IT-10­
TSA-IT-10-28    Enhanced Security Testing                                                         01
                Core Accounting System, Financial Procurement Desktop , and                    TSA-IT-10­
TSA-IT-10-29    Sunflower Access Recertifications                                                 02




Information Technology Management Letter for the TSA Component of the FY 2010 DHS Financial 
 

                                     Statement Audit 
 

                                              Page 19 
 

                                                                                                                              Appendix D
                                       Department of Homeland Security 
 

                                    Transportation Security Administration 
 

                                   Information Technology Management Letter
                                              September 30, 2010




                                                                                      O/TICW'" 1'7......,."     lfislrtlti_
                                                                                      6411 s....IlI~ S.I'Mt. TSA_14
                                                                                      " rli.X'o., V" 105711-6014
                                                                                      W....i......... DC 2tS28

                                                                                      Transportation
                                                                                      Secur1ty
                                                                                      Administration

        MEMORANDUM FOR;                  "'rank Deffer
                                         Assistant Ins~tor Oenernl, Infonnation Technology Audits
                                         Department of Homeland Security
                                                                                                                                      Ir
                                         Office of Inspector G~nernl
                                         245 Murray Lane, SW
                                         Building 410
                                         Washington, DC 20528
                                         <l. 9.       A   31~_ ~ ",/~/""
        FROM:                           'Dr. Jrmmaeim'tOO-Alexandcr
                                         Chief Information OfTIecr
                                         Transportation Se<:urity Administration

                                         DaVidNicho~.//.~/(
                                         Chief Financial Offiee1
                                         Oflke of Finance and Adminislnl.tion

        SUI3JECf:                        Response - Drafl &port: Injon',ation Techllo/ogy Mwtagtnlent Leiterfor
                                         the TransportUlion Sec",il)' Administration COmpo1U!.nt ofthe FY 2010 DRS
                                         Financial Slaten/f!JIt Audit

        Dear Me. Deffer:

        Thank you for the oppol'tunity to comment on the Draft Report: IllformatiOll Technology MllIlagen/ent leiter
        for the Tronspor/alion Securil)' Adminislration COn/ponenl (iflhe FY 2010 DHS Financial Sialement Audil.
        TSA has reviewed the Mnnagement I....,tter and conlimled the conditions and recommendations are consistent
         with NFRs received in tho FY 2010 audit. We are in the process of implementing the recommendations and
         have no chllnges to the draft report. Again, TSA appreciates the opportunity to review the report, and we look
        forward to working with your team during the upcoming FY 20 I I Financial Stntement Audit.




        File: 1OO0.2.1-a




Information Technology Management Letter for the TSA Component of the FY 2010 DHS Financial 
 

                                     Statement Audit 
 

                                                          Page 20 
 

                              Department of Homeland Security 
 

                            Transportation Security Administration
 

                       Information Technology Management Letter
                                      September 30, 2010


                   Report Distribution

                   Department of Homeland Security

                   Secretary
                   Deputy Secretary
                   General Counsel
                   Chief of Staff
                   Deputy Chief of Staff
                   Executive Secretariat
                   Under Secretary, Management
                   Administrator, TSA
                   DHS Chief Information Officer
                   DHS Chief Financial Officer
                   Chief Financial Officer, TSA
                   Chief Information Officer, TSA
                   Chief Information Security Officer
                   Assistant Secretary for Office of Policy
                   Assistant Secretary for Office of Public Affairs
                   Assistant Secretary for Office of Legislative Affairs
                   DHS GAO OIG Audit Liaison
                   Chief Information Officer, Audit Liaison
                   TSA Audit Liaison

                   Office of Management and Budget

                   Chief, Homeland Security Branch
                   DHS OIG Budget Examiner

                   Congress

                   Congressional Oversight and Appropriations Committees, as appropriate




Information Technology Management Letter for the TSA Component of the FY 2010 DHS Financial
                                     Statement Audit
                                           Page 21
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
